OFFICE OF INSPECTOR GENERAL ·                                    · U.S. DEPARTMENT OF THE INTERIOR 



                               RECOVERY OVERSIGHT OFFICE
                                         Washington, DC 20240


                Interim Audit Report on Recovery Act Data Quality Review
                               (ROO-IN-MOA-A001-2009)

     Background:

     The Nation faces what is generally reported to be the most serious economic crisis since the
     Great Depression. In response, the American Recovery and Reinvestment Act of 2009
     (Recovery Act) was enacted to preserve and create jobs; to assist those most impacted by the
     recession; to increase economic efficiency by investing in technological advances in science and
     health care; to invest in transportation, environmental protection, and other infrastructure that
     will provide long-term economic benefits and to stabilize state and local budgets. The Recovery
     Act’s combined spending and tax provisions are expected to cost $787 billion.

     This audit, requested by the Recovery, Accountability and Transparency Board (the Board),
     evaluates DOI procedures for complying with section 1512 of the Recovery Act. Section 1512
     of the Recovery Act requires recipients to submit data on a quarterly basis for grants, loans, and
     federally awarded contracts under the Act. FederalReporting.gov was set up in order to fulfill
     their reporting obligations. The Department of the Interior (Department) and its bureaus and
     offices awarding Recovery Act funds are responsible for ensuring recipients are aware of the
     reporting requirements. The Department is also responsible for validating the information
     provided by recipients to ensure there are no significant reporting errors and/or material
     omissions in the data.

     The Board requested this review to ensure that the Department has a documented process for
     reviewing data quality and identifying whether there are any material omissions and/or
     significant reporting errors. The Board encouraged all Offices of Inspectors’ General whose
     agencies were appropriated Recovery Act monies to undertake this important work as soon as
     possible and to issue a report to their respective agency by October 30, 2009. The Board will
     then compile the results and issue a consolidated report identifying any systemic issues and, if
     appropriate, make government-wide recommendations for improvement. The Board anticipates
     issuing this consolidated report in November 2009, allowing agencies time to make changes for
     the second reporting process scheduled to begin in January 2010.

     We are taking a two-tiered approach regarding our report on this audit. This interim report
     addresses whether the Department has established a process 1) to perform limited data quality
     reviews to identify material omissions and/or significant reporting errors, and 2) to notify the
     recipients of the need to make appropriate and timely changes. Later, in the second tier, we
     intend to issue a final audit report that examines whether these processes have been implemented
     and are achieving intended results.
Objective:

To determine whether the Department has established a process to perform limited data quality
reviews intended to identify material omissions and/or significant reporting errors, and notify the
recipients of the need to make appropriate and timely changes.

Scope:
We reviewed the Department’s process for monitoring recipient reporting of American Recovery
and Reinvestment Act funds for the quarter ending September 30, 2009.

Methodology:

To accomplish the audit objectives we:

   	 Conducted the audit in accordance with Generally Accepted Government Auditing
      Standards issued by the Comptroller General of the United States;

   	 Obtained, reviewed, and documented the Department’s policies and procedures for
      reviewing quarterly Recovery Act data pursuant to OMB Memorandum M-09-21 (section
      3.12);

   	 Reviewed policies and procedures, observed internal control processes, and conducted
      interviews to determine how the agency plans to ensure all prime recipients have filed the
      required quarterly reports and how the agency will ensure it conducts the required
      reviews of the reported data;

   	 Conducted a walk-through of the agency’s process to perform limited data quality 

      reviews; 


   	 Determined whether the agency’s policy and procedures have been designed to
      emphasize the avoidance of two key data problems: material omissions and significant
      reporting errors;

   	 Determined whether the agency has an adequate process in place to remediate systemic
      or chronic reporting problems;

   	 With the understanding that M-09-21 is a reporting tool rather than a management tool,
      determine whether the agency anticipates that it will be able to use the reported
      information as a tool for:

       i)	 Assessing compliance with the terms and conditions of award agreements,

       ii) Assessing risk,

       iii) Determining when to release remaining funds.


                                                 2

Internal Controls:

To plan and perform our audit, we obtained an understanding of the agency's internal controls,
determined whether internal controls had been placed into operations, and performed a limited
test of controls in order to determine the effectiveness of these controls. We limited our internal
control testing to those controls necessary to achieve the objectives of our audit.

Summary of the Department Plan:

The Department issued its draft guidance on data quality reviews on September 14, 2009.
Starting October 1, 2009, FederalReporting.gov was available for recipient reporting. All federal
contractors, and recipients of financial assistance awards of $25,000 or greater, are required to
report on the expenditure of those funds pursuant to section 1512 of the Recovery Act.

The Department outlined a plan for enforcing recipient reporting and for validating report
submissions. The plan defines the roles and responsibilities of the Department and its bureaus
and offices and is subject to modification for future reporting periods based on lessons learned.

The Department’s guidance states that it has established a multi-pronged approach to ensuring
award recipients are aware of the reporting requirements and includes:

   	 A cross-check of financial assistance award recipients against the Central
      Contracting Registration (CCR). Using the Data Universal Numbering System
      (DUNS) numbers, the Department ensures each of its Recovery Act financial assistance
      recipients is registered in CCR. Those not registered are notified to do so.

   	 E-mail reminders and training. Using the e-mail addresses found in CCR, the
      Department sends reminders to all financial assistance and contract recipients regarding
      reporting requirements, including the registration guide and templates. Recipients are
      offered training and bureau-specific webinars to learn how to complete reporting
      templates. The e-mail reminders also include a point of contact in case there are
      questions.

   	 Preparation for validation. Bureaus develop a report that contains the DUNS number,
      award number, Treasury Appropriation Fund Symbol (TAFS), award amount, and
      amount invoiced. The Department then develops a list of high-risk and high-priority
      recipients detailing the projects, descriptions of awards, status of projects, and
      Departmental contracting officer names. High-risk and high priority recipients are
      determined by the number of awards they have across the Department, dollars obligated
      to the recipient, and dollars outlayed to the recipient. This list is available to the
      validation team (tiger team) in the event of questions during the validation period. The
      tiger team is responsible for validating recipient reporting and is composed of
      Department, bureau, and office representatives.




                                                 3

The final part of the plan outlines the process for validating recipient data. Each bureau and
office awarding Recovery Act funding is expected to devote at least one person for recipient-
reporting validation. The validation of data is expected to occur in two phases, a read only phase
and a comment phase.

Once entered into FederalReporting.gov, information is available on a read-only basis for a
week, during which the tiger teams will identify any recipients with missing reports and
incomplete or inaccurate information. After a week, the reports are opened for review and
comments. During this phase the tiger teams will comment on FederalReporting.gov for each
recipient that was identified in the read only phase. A tracking log will be created to monitor the
review and comments made by the tiger team. Once comments have been made, the reports will
be sent back to the recipients for corrections. Once the corrections are made by the recipients,
the tracking log is updated, giving the go ahead to the tiger team for final validation.

Results:

We determined the Department has established a process to perform limited data quality reviews
intended to identify material omissions and significant reporting errors, and notify the recipients
of the need to make appropriate and timely changes. We have also determined the Department
has policies and procedures designed to emphasize the avoidance of material omissions and
significant reporting errors, and have an adequate process in place to remediate systemic or
chronic reporting problems.

The Department’s plan includes procedures for ensuring recipients are aware of reporting
requirements, for preparing for the validation process, for the development of a specialized
validation team, and contains certain criteria on what the validations will evaluate. This plan
was developed with an established timeline and milestone due dates. The tiger team meets daily
during the read-only validation and comment period and acts as the Department’s first line of
defense in remediating systemic or chronic reporting problems.

The Department stated that, in time, the reported information could possibly be used as a tool to
assess risk, and to assess compliance with terms and conditions of award agreements, and to
determine when to release funds in the future. The Department stated that as additional quarterly
data comes in, they could possibly use the data to identify trends. As they have only received
reports for one quarter, they feel this information is insufficient to support an assessment of risk
without comparative data.

Observations:

Lack of step-by-step procedures for validation: Although the Department has developed a
plan to ensure compliance with recipient reporting requirements and report submission
validations, it fails to list detailed, step-by-step procedures on how the data will be validated.
The plan does not describe exactly how missing or inaccurate data fields will be identified. This
deficiency could result in inconsistent approaches to conducting reviews among the tiger team
members. The Department’s plan is to develop these step-by-step procedures when the tiger
team meets for the validation phase.

                                                 4

We have determined that this deficiency is not from an oversight in planning by the Department,
but from an uncertainty of the type of data received from the FederalReporting.gov website. The
Department was uncertain on what the format of the data submissions downloaded from
FederalReporting.gov will be. We called the FederalReporting.gov Helpdesk for verification,
but the Helpdesk was unable to describe how data will be sent to the Department. Because of
these uncertainties from FederalReporting.gov, the Department plans to develop these steps after
the tiger teams begin to meet. We intend to follow-up and determine if and when these steps are
accomplished.




                                               5

